                                   I

U.S. Department of the Interior
Office of Inspector Genera




           AUDIT REPORT


          WITHDRAWN LANDS,
      DEPARTMENT OF THE INTERIOR

            REPORT NO. 96-I-1268
              SEPTEMBER 1996
.
               United States Department of the Interior
                          OFFICE OF THE INSPECTOR GENERAL
                                    Washington, D.C. 20240




    SUBJECT SUMMARY:             Final Audit Report for Your Information - “Withdrawn
                                 Lands, Department of the Interior” (No. 96-I-1268)

    Attached for your information is a copy of the subject final audit report. The
    objective of the audit was to determine whether the Bureau of Land Management’s
    policies and procedures for processing and monitoring land withdrawals were
    adequate and whether the Bureau of Reclamation was identifying and reporting
    lands eligible for conveyance to the Bureau of Land Management.

    The Federal Land Policy and Management Act of 1976 requires the Secretary of the
    Interior to review, by October 1991, certain existing land withdrawals and to
    recommend to the President that the withdrawals be continued, modified, or
    terminated. The Bureau of Land Management estimated that 4,100 withdrawals,
    covering about 46 million acres, are required to be reviewed. However, we found
    that none of the 335 withdrawal reviews completed and forwarded by the Bureau had
    been processed through the Department and that another 1,057 reviews by Bureau
    field offices were being held until the previously submitted reviews were acted upon.
    We also concluded that the Bureau of Reclamation had generally identified and
    reported to the Bureau of Land Management lands that were no longer needed for
    the purposes for which they were withdrawn.

    We believe that the withdrawal reviews submitted by the Bureau of Land
    Management were not processed primarily because of disagreements between the
    Bureau and the Office of the Solicitor concerning the adequacy of the Bureau’s
    procedures for processing the withdrawal reviews. In addition, because the
    Department had not emphasized completion of the withdrawal review process, the
    Bureau assigned a low priority to completing the remaining reviews, estimated to be
    about 2,700. As a result, based on a Bureau of Land Management estimate, about
    25 million acres of withdrawn public lands are no longer needed for the purposes for
    which they were withdrawn, including 8.7 million acres of land withdrawals that were
    recommended for termination in the 1,392 reviews completed by the Bureau of Land
    Management’s field offices.
Based on responses from the Bureau of Land Management and the Assistant
Secretary for Water and Science, we considered the recommendation pertaining to
expediting the termination of administrative land withdrawals to be resolved and
implemented and requested additional information on the recommendations
pertaining to processing the backlog of completed withdrawal reviews and resolving
disputes between the Bureau of Land Management and the Bureau of Reclamation.

If you have any questions concerning this matter, please contact me at (202)
208-5745 or Mr. Robert J. Williams, Acting Assistant Inspector General for Audits,
at (202) 208-4252.



Attachment
                                                                W-IN-MOA-001-95

            United States Department of the Interior
                      OFFICE OF THE INSPECTOR GENERAL
                              Washington, D.C. 20240



Memorandum

To:        Assistant Secretary for Land and Minerals Management
           Assistant Secretary for Water and Science

From:      Robert J. Williams


Subject:   Audit Report on Withdrawn Lands, Department of the Interior
           (No. 96-I-1268)

This report presents the results of our audit of withdrawn land activities of the
Department of the Interior. Withdrawn lands are Federally owned lands that have
been set aside for various purposes, such as national parks and irrigation projects,
and the use of these lands is limited to the specific purposes for which they were
withdrawn. The Federal Land Policy and Management Act of 1976 (Public Law 94-
579) authorizes and provides guidelines to the Secretary of the Interior to make,
modify, extend, or revoke withdrawals of public lands.

The objective of our audit was to determine whether the Bureau of Land
Management’s policies and procedures for processing and monitoring land
withdrawals were adequate and whether the Bureau of Reclamation was identifying
and reporting lands eligible for conveyance to the Bureau of Land Management. We
concluded that the Bureau of Reclamation had generally identified and reported to
the Bureau of Land Management lands that were no longer needed for the purposes
for which they were withdrawn. However, we also concluded that withdrawal reviews
completed by the Bureau of Land Management had not been processed by the
Department and forwarded to the Secretary of the Interior for approval and
submission to the President, as required by Section 204(1) of the Act, because of
legal questions regarding the adequacy of the Bureau’s withdrawal review procedures.

The Department has not resolved disagreements between the Office of the Solicitor
and the Bureau of Land Management regarding the adequacy of the Bureau’s
processing procedures, resulting in 1.7 million acres of land withdrawals that have
been recommended for termination by the Bureau not being processed by the
Department and the reviews not being forwarded to the Secretary. In addition, until
these withdrawals are processed, the Bureau’s Headquarters office is withholding the
processing of other withdrawal reviews that recommend the termination of an
additional 7 million acres of withdrawn lands. As such, 8.7 million acres of
withdrawn land remain unavailable for other uses. Further, we found that the
Bureau had assigned a low priority to completing the remaining withdrawal reviews
until those already submitted by the Bureau had been processed by the Department,
even though Section 204(1) of the Act required completion of the reviews by October
1991. We made three recommendations to the Assistant Secretaries for Land and
Minerals Management and Water and Science to address the processing of the land
withdrawal reviews already completed and the completion of the remaining
withdrawal reviews.

Responding for the Assistant Secretary for Land and Minerals Management, the
August 27, 1996, response (Appendix 2) from the Director, Bureau of Land
Management, stated that the Bureau “generally agrees” with the contents of the
report, but the response did not state concurrence or nonconcurrence with each
recommendation. The September 18, 1996, response (Appendix 3) from the
Assistant Secretary for Water and Science concurred with Recommendations 1 and
3 (Recommendation 2 was not applicable to the Bureau of Reclamation). Based on
the responses and the corrective actions identified, we considered Recommendation
2 resolved and implemented because the Bureau of Land Management, in July 1996,
issued Instruction Memorandum No. 96-145, which includes revised criteria and
procedures for processing withdrawal reviews that consider using the authority of
Section 204(a) of the Act to revoke withdrawals. However, also based on the
responses, we are requesting that the Assistant Secretary for Land and Minerals
Management address completing all remaining withdrawal reviews (it addressed only
Bureau of Reclamation withdrawals), as stated in Recommendation 1, and provide
target dates for implementing actions proposed for Recommendations 1 and 3 (see
Appendix 4).

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, actions taken to
implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a
written response to this report by December 6, 1996. The response should provide
the information requested in Appendix 4.

We appreciate the assistance of Bureau of Land Management and Bureau of
Reclamation personnel in the conduct of our audit.
                                         CONTENTS


                                                                                                Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
        OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
        PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDING AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . 5

        REVIEWS OF WITHDRAWN LANDS . . . . . . . . . . . . . . . . . . . . . . . 5

APPENDICES

        l. OFFICES VISITED OR CONTACTED . . . . . . . . . . . . . . . . . . .                    . 14
        2. ASSISTANT SECRETARY FOR LAND AND MINERALS
            MANAGEMENT RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . .                . 15
        3. ASSISTANT SECRETARY FOR WATER AND
            SCIENCE RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        ...21
        4. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . .                                 . 23
                                  INTRODUCTION

BACKGROUND
                                                                                                  l
Since the 19th century, Federally owned public lands have been withdrawn
administratively by the President or by the Secretary of the Interior and legislatively
by various laws for the benefit of programs administered by the Department of the
Interior, the Department of Defense, the Department of Agriculture’s U.S. Forest
Service, and other Federal agencies. The lands have been withdrawn administratively
for needs such as building a Bureau of Reclamation water project and withdrawn
legislatively for needs such as establishing a national park. Overall, both types of
withdrawals have limited access to an estimated 357 million acres of Federal lands.

Prior to 1976, concerns were expressed to the Congress that unneeded withdrawals
closed millions of acres of Federal lands to mineral exploration and other uses. To
address these and other concerns, the Congress enacted the Federal Land Policy and
Management Act of 1976 (Public Law 94-579) to provide guidelines for the
management, use, and disposal of public lands and to delineate the extent to which
the Executive Branch can withdraw public lands. Section 204(a) of the Act
authorized the Secretary to make, modify, extend, or revoke withdrawals in
accordance with the provisions and limitations of Section 204. Section 204(1)
required the Secretary to review, by October 21, 1991, withdrawals in 11 western
       2
states; determine whether the lands were still needed for the purposes for which
they were withdrawn; and recommend to the President whether and for how long
these withdrawals should be continued. The President would transmit the Secretary’s
report to the Congress, with recommendations for actions by the Congress or by the
Secretary. This section also authorized the Secretary to terminate withdrawals that
were administratively approved in accordance with the President’s recommendations.

Within the Department of the Interior, the Bureau of Land Management and the
Bureau of Reclamation were the major landholding agencies that had withdrawals
subject to the provisions of Section 204(1). The Bureau of Land Management, which
is responsible for managing about 41 percent of Federally owned lands, primarily in
the West, is performing the reviews required under Section 204(1). The Bureau
estimated that 4,100 withdrawals, involving about 46 million acres of land withdrawn

l
Withdrawals are withholdings of Federal lands from settlement, sale, entry, mineral location, or
disposal under some or all of the general land laws. Withdrawals limit the use of the land to the
specific purpose or purposes for which it was withdrawn.
2
 The withdrawals to be reviewed were those existing as of October 21, 1976, in Arizona, California,
Colorado, Idaho, Montana, Nevada, New Mexico, Oregon, Utah, Washington, and Wyoming. The
review excluded: (1) withdrawals administered by the Bureau of Land Management and the
U.S. Forest Service that did not close the land to mining or mineral leasing except for withdrawals
in wilderness areas, primitive or natural areas, and national recreation areas and (2) land within
Indian reservations (and other Indian holdings), the National Park System, the National Wildlife
Refuge System, the National Wild and Scenic Rivers System, and the National System of Trails.
by all Federal agencies, were subject to review pursuant to the Act. The Bureau
issued a draft manual and handbook to outline the process for reviewing withdrawals
and to provide guidance to its field offices in preparing withdrawal reviews for
processing by its Headquarters and by Departmental offices.

The purpose of the review process was to identify and eliminate withdrawals that
were no longer needed and to justify the continuation of withdrawals, including the
expected length of time the withdrawn lands would be needed. The review process
begins when the Bureau of Land Management prepares an inventory of withdrawn
lands subject to review under Section 204(1) of the Act and sends the inventory to
the responsible agencies. The agencies verify the accuracy of the inventory, review
their withdrawals, and submit their findings to the Bureau as to whether the lands
are used for the purposes for which they were withdrawn; are not used for such
purposes but are needed by the agency for other statutory uses; or are not used for
the required purposes. Bureau field offices independently review the agencies’
                                                                           3
findings, obtain public comment for withdrawals that are to be continued, prepare
                                    4
environmental reviews if necessary, prepare recommendations either to continue or
to terminate the withdrawals, and transmit the withdrawal reviews to the Bureau’s
Headquarters.

The Director of the Bureau of Land Management transmits the withdrawal reviews
to the Assistant Secretary for Land and Minerals Management for review and
submittal to the Department’s Office of Congressional and Legislative Affairs. The
Office circulates the withdrawal reviews within the Department, including, when
necessary, to the Office of the Solicitor, and then submits the reviews to the
Secretary for approval. The Secretary’s recommendations are submitted to the
President, who forwards them to the Congress, together with his recommendations
for actions by the Secretary or by the Congress through legislation. The Secretary
is authorized by the Act to terminate administrative withdrawals in accordance with
the President’s recommendations. However, before administrative withdrawals are
terminated and lands are opened to other potential uses, the Bureau of Land
Management ensures compliance with land use planning requirements of the Federal




3
 The Bureau of Land Management does not obtain public comment on proposed withdrawal
terminations prior to making its recommendation because both the Bureau and the withdrawing
agency have agreed that the withdrawal is no longer needed. Instead, the Bureau solicits public
comment during the planning process, when other uses for the land are considered.
4
 Section 102(C) of the National Environmental Policy Act (Public Law 91-190) requires Federal
agencies to “include in every recommendation or report on proposals for legislation and other major
Federal actions significantly affecting the quality of the human environment, a detailed statement by
the responsible official on (i) the environmental impact of the proposed action, (ii) any adverse
environmental effects which cannot be avoided should the proposal be implemented, [and] (iii)
alternatives to the proposed action.”

                                                 2
                                           5
Land Policy and Management Act and environmental review requirements of the
National Environmental Policy Act.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the Bureau of Land
Management’s policies and procedures for processing and monitoring land
withdrawals were adequate and whether the Bureau of Reclamation was identifying
and reporting lands eligible for conveyance to the Bureau of Land Management. To
accomplish our objective, we reviewed selected withdrawal review files and related
documentation, interviewed Departmental and bureau personnel involved with
reviewing and processing withdrawals, and reviewed relevant Bureau of Land
Management policies and procedures.

Our audit was conducted at the locations identified in Appendix 1. This audit was
made in accordance with the “Government Auditing Standards,” issued by the
Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. As part of our audit, we performed an evaluation of internal controls
to the extent we considered necessary to accomplish our audit objective.

During our audit, we found that in 1991 and 1994, the Bureau of Land Management
had conducted alternative management control reviews of the processing and review
of land withdrawals. The 1991 review reported that the Bureau’s Headquarters had
not taken actions on field office reviews because: (1) there were no policies and
procedures for forwarding review recommendations to Bureau Headquarters or to
the Secretary and (2) the review process was restricted because of a lawsuit brought
                                                            6
against the Bureau by the National Wildlife Federation. Based on the reviews
completed as of July 1991, the Bureau estimated that about 25 million acres of the
46 million acres subject to review were no longer needed for the purposes for which
they were withdrawn. In its Annual Statement and Report, required by the Federal
Managers’ Financial Integrity Act, for fiscal years 1991, 1992, and 1993, the



5
Section 202(a) of the Federal Land Policy and Management Act requires the Secretary to “develop,
maintain, and, when appropriate, revise land use plans . . . for the use of the public lands.” Section
202(e) provides guidance to the Secretary for issuing management decisions to implement the land
use plans.
6
 The National Wildlife Federation v. Burford, et al. suit, brought against the Bureau of Land
Management in 1985, impeded the processing of withdrawal reviews for over 5 years. The Federation
alleged that the Bureau had violated the Federal Land Policy and Management Act by failing to take
the following actions: (1) develop, maintain, and, when appropriate, revise land use plans that provide
for the use of the public lands; (2) submit recommendations as to withdrawal reviews in the 11
Western states to the President; (3) consider multiple uses for the disputed lands; and (4) provide
public notices of decisions. The suit also alleged violation of Section 102 of the National Environment
Policy Act. In 1990, the U.S. Supreme Court dismissed the suit for lack of standing by the Federation
in the specific actions cited by the suit.

                                                  3
Department reported the processing of land withdrawal reviews as a material control
weakness.

The Bureau of Land Management’s 1994 alternative management control review
reported that the Bureau had issued a draft manual and handbook in 1991 to clarify
the review process but that the material control weakness still existed because
withdrawal review recommendations had not been submitted to the Secretary or to
the President. In its Annual Statement and Report for 1994, the Department
reported that the material weakness was corrected because of the issuance of the
Bureau’s manual and handbook, the implementation of procedures to ensure that the
review process received high priority, the assignment of a Departmental employee
to work with the Bureau to expedite the review process, and the continued efforts
of Bureau field offices in sending withdrawal reviews through the Department.
Although the Department’s 1994 report stated that the material control weakness
had been corrected, we were not able to identify the cited procedures or the assigned
responsible individual, and we found that no withdrawal review recommendations
had been forwarded to the Secretary for submission to the President since the
dismissal of the National Wildlife Federation lawsuit in 1990. Our recommendations,
if implemented, should improve the effectiveness of the review process. However,
since the withdrawal reviews were not completed by the legislatively mandated 1991
deadline, we believe that the Department should reevaluate its decision to not report
this condition as a material control weakness.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the Office of Inspector General nor the General
Accounting Office has issued any reports specifically addressing the processing of
land withdrawals.
              FINDING AND RECOMMENDATIONS

REVIEWS OF WITHDRAWN LANDS

While the Bureau of Reclamation has generally identified and reported lands that
are no longer needed for the purposes for which they were withdrawn, withdrawal
reviews completed by the Bureau of Land Management have not been processed
through the Department because of legal concerns regarding the adequacy of the
Bureau of Land Management’s procedures. Section 204(1) of the Federal Land
Policy and Management Act of 1976 requires the Secretary of the Interior to review,
by October 1991, certain existing land withdrawals and to recommend to the
President whether to continue or terminate the withdrawals. However, the
withdrawal reviews have not been processed as required by the Act because the
Department has not entirely resolved disagreements between the Solicitor’s Office
and the Bureau of Land Management as to when detailed land use planning and
environmental reviews are required during the land withdrawal review process. In
addition, because the Department has not emphasized completion of the withdrawal
review process, field office personnel have assigned a low priority to completion of
the remaining withdrawal reviews. As a result, based on a Bureau of Land
Management estimate, about 25 million acres of withdrawn public lands are no
longer needed for the purposes for which they were withdrawn, including the
8.7 million acres of land withdrawals that were recommended for termination in
reviews completed by the Bureau of Land Management’s field offices. We were
unable to identify the monetary impact to the Government of not processing the
termination recommendations or identify other purposes for which the land will be
used after the withdrawals are terminated because this information was neither
required nor developed by the Bureau,

Reclamation Reported Lands

We concluded that the Bureau of Reclamation has generally identified and reported
lands that are no longer needed for the purposes for which they were withdrawn.
The Bureau has completed reviews of 720 withdrawals, covering approximately
6.6 million acres, out of an estimated 798 withdrawals, covering 7.4 million acres.
Based on its reviews, the Bureau of Reclamation has reported to the Bureau of Land
Management that approximately 3.5 million acres of withdrawn lands are no longer
needed for project purposes. Both bureaus have agreed to recommend that these
withdrawals be terminated. However, the Bureau of Land Management had not
agreed to the Bureau of Reclamation’s decision to continue 37 withdrawals, covering
111,471 acres, as discussed in the section “Resolution of Review Disputes” in this
report.
Bureau of Land Management Reviews Completed

We could not determine whether the Bureau of Land Management’s policies and
procedures for processing and monitoring land withdrawals were adequate because
none of 335 reviews completed and forwarded by the Bureau’s Headquarters had
                                                 7
been processed through the Department. The reviews recommended that
withdrawals be continued on 1.2 million acres and terminated on 1.7 million acres.
We believe that the primary reason the reviews were not processed was because of
intra-Departmental disagreements concerning the Bureau’s procedures for processing
the withdrawal reviews. Specifically, while the differences have changed over the
years, the major difference still concerns the actions needed for compliance with the
land use planning provisions of the Federal Land Policy and Management Act and
the environmental review provisions of the National Environmental Policy Act. As
such, no withdrawal review recommendations have been forwarded to the Secretary
for consideration.

The 335 reviews completed and forwarded represented only a portion of the reviews
completed by Bureau of Land Management field offices. Of the estimated 4,100
withdrawals, totaling about 46 million acres, scheduled to be reviewed under Section
                                                           8
204(1) of the Act, Bureau field offices had reviewed 1,392 land withdrawals, totaling
about 10.6 million acres. The withdrawing agencies, including the Bureau of
Reclamation and the Bureau of Land Management, prepared reports and
recommendations for each of these withdrawals. The Bureau of Land Management’s
field offices reviewed these reports and recommendations and, with the agencies’
concurrences, recommended that 8.7 million acres of withdrawals be terminated.
After the dismissal of the National Wildlife Federation lawsuit by the U.S. Supreme
Court, the Bureau’s Headquarters office attempted to process 335 of the 1,392
                          9
reviews, in 17 packages, through the Department. In May 1995, the Department’s
                                                                                  10
Office of Congressional and Legislative Affairs forwarded 3 of the 17 packages to
the Solicitor’s Office, which, in September 1995, “surnamed” the packages and
returned them to the Office of Congressional and Legislative Affairs for further
processing. Although the three packages were considered, in effect, legally sufficient


7
 A staff attorney within the Solicitor’s Office said that the Department had submitted “several review
packages” to the President prior to the National Wildlife Federation suit but that none of these
packages were processed and they were subsequently returned to the Department. A Bureau of Land
Management Headquarters official confirmed this statement. However, no documentation concerning
these withdrawal review packages was provided.
8
 The Bureau of Land Management grouped the 1,392 withdrawal reviews completed by its field offices
into 71 packages for further processing by the Department and submittal to the President.
9
These packages were submitted to the Office of Congressional and Legislative Affairs. However,
documentation was not available to demonstrate the extent of additional processing by the
Department.
10
 The three packages consisted of 110 reviews with recommendations that withdrawals should be
continued on 288,548 acres and terminated on 705,720 acres.

                                                  6
by the Solicitor’s Office, a Bureau of Land Management Headquarters official stated
that he did not believe that all the legal concerns regarding the withdrawal review
process had been resolved because these packages were the least controversial and
the easiest to process. Departmental and Bureau personnel also stated that the
remaining 1,057 reviews completed by the field offices would not be processed
through the Bureau’s Headquarters office until the Secretary had made his
recommendations to the President on the three packages.

Regarding the procedures for the withdrawal review process, the Bureau of Land
Management and the Solicitor’s Office disagreed on when detailed land use and
environmental reviews were required in the process. According to the Bureau’s draft
manual and handbook, detailed land use and environmental reviews would generally
not be required until after the Secretary had submitted the withdrawal review
recommendations to the President and the President had made his recommendations
to the Congress. The Bureau believed that these detailed reviews were not required
as part of the evaluation of whether lands were still needed for the purposes for
which they were withdrawn and that the evaluation was usually a “categorical
            ll
exclusion,” as defined by the Departmental Manual (516 DM 6, Appendix 5). In
contrast, the position of the Solicitor’s Office was that land-use planning and
environmental reviews should be completed prior to submittal of the termination
recommendation to the Secretary. The Solicitor’s Office believed that it was
necessary to have updated land use plans before making recommendations to
terminate existing withdrawals and that compliance with the National Environmental
Policy Act was necessary “before the Secretary becomes actively engaged in
considering a proposal requiring a decision to be made in the form of a report
                                                                                 12
containing the Secretary’s withdrawal review recommendations to the President.”

Since the withdrawal review process is being disrupted because of the ongoing
disagreement between the Solicitor’s Office and Bureau management regarding
when, in the review process, detailed land use and environmental reviews are
required, we believe that this issue should be addressed promptly and the matter
resolved to allow the timely processing of the withdrawal reviews through the
Department.

To accelerate the revocation of withdrawals identified as unneeded by the field
offices, Bureau of Land Management personnel have suggested using the authority
of Section 204(a) to revoke certain withdrawals. The Solicitor’s Office, in a
memorandum dated October 30, 1980, stated that “individual proposed revocations,
arising in the ordinary course of business, may be processed to completion, pursuant
to the separate revocation authority of the Secretary under Section 204(a) of [the


ll
 Categorical exclusions are Federal actions that, by regulation, do not require detailed environmental
reviews in order to be in compliance with the requirements of the National Environmental Policy Act.
12
 April 10, 1992, memorandum from the Office of the Solicitor to the Office of Congressional and
Legislative Affairs.

                                                  7
                                                                                                    I

Federal Land Policy and Management Act].” This authority has been delegated to
the Assistant Secretary for Land and Minerals Management, while the authority to
recommend termination of withdrawals under Section 204(1) remains with the
Secretary. Section 204(a) has been used previously to revoke withdrawals, including
lands used in the Bureau’s land exchange program, and Bureau personnel estimated
that it would take 1 to 6 months to process a withdrawal revocation. The personnel
believed that this approach would be effective for noncontroversial “record-clearing”
terminations, such as lands with duplicate withdrawals and withdrawn lands no longer
in Federal ownership. Approximately 1.7 million acres of the 8.7 million acres of
withdrawals recommended for revocation by the field offices were considered to be
record-clearing actions.

Withdrawal Reviews To Be Completed

We found that, because of the backlog of withdrawal reviews that had not been
processed through the Department, the Bureau of Land Management and its field
offices have assigned a low priority to completing the approximately 2,700 remaining
withdrawal reviews. We also found that completion of certain withdrawal reviews
has been delayed because of unresolved disputes between the Bureau of Land
Management and the Bureau of Reclamation over the continued need for land
withdrawn for specific Reclamation projects.

        Work Load Priority. The Bureau reported to the Congress in its fiscal year
1996 budget justification, submitted in February 1995, that it expected to complete
approximately 2,700 withdrawal reviews by September 30, 1998, “provided necessary
funds are received.” However, in its fiscal year 1996 workplan, dated September 11,
1 9 9 5 , t h e B u r e a u s t a t e d t h a t “due to funding reductions, withdrawal
reviews . . . should be delayed whenever possible” and that priority is given to
“customer service driven activities. ” Subsequently, a Bureau Headquarters official
told us that the 1998 milestone will probably not be met, and Bureau field personnel
told us that they did not believe that completing withdrawal reviews should be
assigned a high priority, particularly when the Department had not processed the 335
completed reviews. In this regard, we found during our visits to the Wyoming and
Idaho State Offices that, at that time, no staff members were assigned to reviewing
                                                                       13
withdrawals, although these offices had over 500 withdrawals remaining to be
reviewed. Also affecting field office priority in completing the remaining withdrawal
reviews was the requirement contained in the Bureau’s draft manual (Section
2355.25) that data over 1 year old in the backlogged withdrawal reviews was to be
verified and updated by Bureau field offices, which results in increased costs and, in
our opinion, the inefficient use of limited personnel resources.




13
 This amount represents collectively Bureau of Land Management, Bureau of Reclamation, and
U.S. Forest Service withdrawals. The Wyoming State Office had 210 of these withdrawals to review,
while the Idaho State Office had 290 withdrawals to review.

                                               8
       Resolution of Review Disputes. On January 15, 1993, the Assistant Secretary
for Water and Science and the Assistant Secretary for Land and Minerals
Management jointly issued a memorandum that provided general guidelines for
resolving certain issues related to Bureau of Reclamation withdrawals. This
memorandum was superseded in 1994 by another memorandum issued by the
Assistant Secretaries, which attributed the cause of the unresolved issues to a lack
of communication between the two bureaus and directed both bureaus to improve
communications to reach mutually acceptable solutions. The memorandum also
stated that “cases that are unresolved are to be sent back to the lowest level possible
for joint reevaluation and agreement that includes full communication and sharing
of information” and that a schedule of target dates for resolution of these issues was
to be jointly established and submitted to both Assistant Secretaries. Field office
personnel in both bureaus developed schedules that were provided to Bureau of
Reclamation and Bureau of Land Management Headquarters officials so that these
officials could assist in tracking the target dates for resolution. The officials told us
that the target dates for several projects would not be met because personnel in the
cognizant field offices could not fully resolve their disagreements. The officials
further stated that they had not been closely monitoring the field offices’ progress
in meeting their deadlines because of the low priority assigned to the disputed cases.
We reviewed the Columbia Basin Project, the Navajo Unit of the Colorado River
Storage Project, and the Owyhee Project, which made up 19 (101,161 acres) of the
37 withdrawals (111,471 acres) and had lands in dispute as follows:

       - The two bureaus disagreed over the continued need for 13 withdrawals,
totaling 58,293 acres, at the Columbia Basin Project. The withdrawn acres were
                                                                 14
spread throughout the Project and integrated with lands acquired by the Bureau
of Reclamation. Bureau of Land Management field office personnel said that they
believed the Bureau of Reclamation had not demonstrated that the withdrawals were
needed for Project purposes. Bureau of Reclamation documentation indicated that
the Bureau was formulating a plan for managing the acreage within the Project.
However, a Bureau of Reclamation employee stated that none of the withdrawn
lands would be returned to the Bureau of Land Management, citing the authority of
the Columbia Basin Project Act. While the two bureaus agreed to resolve the
disagreements on the Columbia Basin Project by December 31, 1995, this deadline
was not met because cognizant field office personnel had not reached a consensus
on withdrawal review recommendations and the Bureau of Reclamation’s
management plan was not estimated to be completed until October 1, 1996.

      - Although the deadline for resolving the disputed withdrawals at the Navajo
Unit of the Colorado River Storage Project in New Mexico was not met, the bureaus
have attempted to address the issue. The bureaus disagreed over the continued need
for four land withdrawals, involving 24,841 acres, at the Navajo Dam and Reservoir.
After issuance of the 1994 Assistant Secretaries memorandum, the two bureaus


14
 These lands were obtained by the Federal Government through purchase, condemnation, gift, or
exchange.

                                              9
established an interagency task force to reach concurrence on withdrawal review
recommendations by February 1, 1995. However, a joint withdrawal review report
was not prepared by the February deadline because the task force concluded that
neither bureau alone could provide adequate protection and management of the
withdrawn lands. Instead, the task force developed a proposal for a 5-year program
to jointly manage an area of 218,200 acres, which included the withdrawn lands. The
decision to propose joint management has made it possible for the bureaus to
progress from their impasse on withdrawal reviews and to address the management
and protection of the total area. The proposal was approved in October 1995 and
November 1995 by Headquarters officials from the Bureau of Reclamation and the
Bureau of Land Management, respectively. We were informed by personnel at the
Bureau of Reclamation’s Upper Colorado Regional Office and the Bureau of Land
Management’s Farmington District Office that if the joint management proposal is
successful, it could serve as a means of resolving disputes on other projects.

        - The two bureaus disagreed on two withdrawals, totaling 18,027 acres, at the
Owyhee Project. The Bureau of Reclamation recommended that the withdrawn
lands around and downstream from the reservoir remain in withdrawn status to
protect Project facilities and to ensure water quality. Conversely, the Bureau of
Land Management’s recommendation was that, except for land where the Project
facilities are located, land above the reservoir’s high-water line was not needed for
Project purposes and should be returned to the Bureau of Land Management. The
bureaus did not resolve the dispute by the jointly established deadline of
October 1, 1995. Further, while a Bureau of Reclamation field office official said
that the Bureau of Reclamation was considering proposing a joint management
approach for these lands, a Bureau of Land Management field office official said
that such an approach was not needed in this case. Accordingly, the dispute remains
unresolved.

Action Plan

The Bureau of Land Management had not completed all withdrawal reviews and the
Department had not forwarded completed reviews to the Secretary or to the
President within the 15-year time frame established by the Act. As such, Federal
land was encumbered with unneeded withdrawals and could not be used for other
purposes. We noted that the program had not received a high priority, as was stated
in 1994 when the material control weakness for processing withdrawal reviews was
reported to be corrected. While the Department may have properly assigned other
programs a higher priority, we believe that it needs to take actions to ensure that,
at a minimum, the completed withdrawal reviews are processed. As such, we believe
that cognizant officials of the Department and the Bureau of Land Management,
working with the Solicitor’s Office, should evaluate the current policies and
procedures for conducting and processing land withdrawal reviews and formulate an
action plan based on priorities established by the Department. This plan should
include target dates for processing withdrawal reviews completed by the Bureau,
completing and processing the remaining reviews, and implementing the President’s


                                         10
                                                                                        I

recommendations or Congressional directives. In our opinion, these actions are
necessary to eliminate unneeded land withdrawals so that the land can be evaluated
for sale, exchange, or other uses.

Recommendations

We recommend that the Assistant Secretary for Land and Minerals Management and
the Assistant Secretary for Water and Science, in consultation with the Solicitor, as
appropriate, direct Departmental officials to:

      1. Develop an action plan, with target dates based on priorities established by
the Department, for processing the backlog of land withdrawal reviews already
completed by the Bureau of Land Management and for completing the remaining
withdrawal reviews.    This plan should include actions to resolve the intra-
Departmental disagreements regarding the Bureau’s processing procedures.

      2. Develop and adopt, to the extent possible, policies and procedures to use
the authority of Section 204(a) of the Federal Land Policy and Management Act to
expedite the termination of administrative land withdrawals.

      3. Take actions necessary to ensure that disputes between the Bureau of Land
Management and the Bureau of Reclamation regarding the continuation or
termination of existing land withdrawals are resolved by the deadlines agreed to by
the cognizant field office officials.

Assistant Secretaries’ Responses and Office of Inspector General Reply

Responding for the Office of the Assistant Secretary for Land and Minerals
Management, the August 27, 1996, response (Appendix 2) from the Director, Bureau
of Land Management, did not specifically state concurrence or nonconcurrence with
the recommendations. However, the Bureau said that it “generally agrees” with the
contents of the report, and it identified actions it would take to resolve the
recommendations. The September 18, 1996, response (Appendix 3) from the
Assistant Secretary for Water and Science concurred with Recommendations 1 and
3 “as they relate to the Bureau of Reclamation” (Recommendation 2 was applicable
only to the Assistant Secretary for Land and Minerals Management). Based on the
responses, we consider Recommendation 2 resolved and implemented but request
that the Assistant Secretary for Land and Minerals Management provide additional
information for Recommendations 1 and 3 (see Appendix 4).

Recommendation 1. Concurrence indicated.

      Assistant Secretary for Land and Minerals Management Response. The
response from the Director, Bureau of Land Management, listed actions taken and
planned for resolution of this recommendation. Specifically, the Bureau stated that
it had sent Instruction Memorandum No. 96-145 (“Guidance for Processing


                                          11
Withdrawal Reviews Using Federal Land Policy and Management Act Sections
204(a) and 204(1) Authorities”) to all of its field officials. According to the Bureau,
the Instruction Memorandum included criteria and procedures that resolved “all
known disagreements concerning withdrawal processing actions” with the Office of
the Solicitor. The Instruction Memorandum directed that all withdrawal reviews be
returned to the field offices for additional review and processing and stated that
although there was no “established schedule for completing these reviews,” each State
Office was “encouraged to submit reviews as workload permits, bearing in mind that
in many instances a majority of your review work has already been completed.”

In the response, the Bureau further stated that it would send withdrawal review cases
determined by its State Offices to be appropriate for processing under Section 204(1)
of the Federal Land Policy and Management Act to the Office of Congressional
Liaison and request that the Office forward those cases for further processing. In
addition, the Bureau said that it would develop, by March 31, 1997, a plan with the
Bureau of Reclamation to complete the remaining withdrawal reviews.

       Office of Inspector General Reply. Aside from the required reviews of Bureau
of Reclamation withdrawals, the Bureau of Land Management did not address
developing a plan to complete all the other withdrawal reviews required by Section
204(1) of the Federal Land Policy and Management Act. Given the problems cited
in our report regarding the processing of previously completed reviews, including the
effects of work load priority, we are concerned that the withdrawal review process
may not be completed in the foreseeable future unless the Bureau establishes an
action plan that has a timetable which it enforces.

Recommendation 2. Concurrence indicated.

      Assistant Secretary for Land and Minerals Management Response. The
Bureau of Land Management stated that the Office of the Solicitor had accepted
a proposal to allow qualified withdrawal reviews to be processed under Section
204(a) of the Federal Land Policy and Management Act. The Bureau further stated
that “necessary instruction and guidance to implement” the processes agreed to by
the Solicitor were contained in Instruction Memorandum No. 96-145.

      Office of Inspector General Reply. This recommendation is considered
resolved and implemented.

Recommendation 3. Concurrence indicated.

      Assistant Secretary for Land and Minerals Management Response. The
Bureau stated that it and the Bureau of Reclamation had “undertaken several
processes to complete existing withdrawal reviews” and that Bureau of Land
Management State Offices in New Mexico, Montana, Wyoming, and Oregon were
actively working to resolve withdrawal review issues. The Bureau of Land
Management further stated that it and the Bureau of Reclamation would “work
together to develop any additional policy guidance necessary to complete this work.”

                                          12
     Office of Inspector General Reply. The Assistant Secretary for Land and
Minerals Management should provide target dates for implementation of this
recommendation.




                                     13
                                                                                      I

                                                                         APPENDIX 1


                   OFFICES VISITED OR CONTACTED
Office of the Secretary
   Office of the Assistant Secretary for Land and Minerals Management*
   Office of Congressional and Legislative Affairs, Washington, D.C.
   Office of the Solicitor, Washington, D. C.*

Bureau of Land Management
  Washington Office, Washington, D.C.
     California State Office, Sacramento, California
     Oregon State Office, Portland, Oregon
        Spokane District Office, Spokane, Washington
        Vale District Office, Vale, Oregon
        Baker District Office, Baker, Oregon*
        Burns District Office, Burns, Oregon*
     Idaho State Office, Boise, Idaho
        Boise District Office, Boise, Idaho
     Nevada State Office, Reno, Nevada’
     Arizona State Office, Phoenix, Arizona*
     New Mexico State Office, Santa Fe, New Mexico*
        Farmington District Office, Farmington, New Mexico
        Las Cruces District Office, Las Cruces, Mew Mexico*
        Roswell District Office, Roswell, New Mexico*
     Wyoming State Office, Cheyenne, Wyoming
        Rawlins District Office, Rawlins, Wyoming*
        Worland District Office, Worland, Wyoming*
        Rock Springs District Office, Rock Springs, Wyoming”

Bureau of Reclamation
  Washington Office, Washington, D. C.*
  Denver Office, Denver, Colorado*
     Mid-Pacific Regional Office, Sacramento, California
     Pacific Northwest Regional Office, Boise, Idaho
        Upper Columbia Area Office, Yakima, Washington*
           Ephrata Field Office, Ephrata, Washington
        Central Snake River Area Office - West, Boise, Idaho
           Owyhee Project, Oregon
        Central Snake River Area Office - East, Burley, Idaho
     Upper Colorado Regional Office, Salt Lake City, Utah
      Great Plains Regional Office, Billings, Montana*
     Lower Colorado Regional Office, Boulder City, Nevada*




*Contacted only.




                                          14
                                                                   APPENDIX 2 ‘
                                                                   Page 1 of 6

                United States Department of the Interior
                        BUREAU OF LAND MANAGEMENT
                              Washington, D.C. 20240




                              MEMORANDUM


To :         Assistant Inspector General

Through:

From:

Subject:     Response to Office of Inspector General (OIG) Draft
             Audit Report on Withdrawn Lands, DOI, July 1996
             (W-IN-MOA-001-95)

Thank you for the opportunity to respond to the subject draft
audit report.  The Bureau of Land Management (BLM) also
appreciated the opportunity to discuss and comment on the
preliminary draft during the exit conference on May 16, 1996.
The BLM generally agrees with the content of the revised report.

This draft audit report contains three recommendations.
Recommendations one and three required coordination with the
Bureau of Reclamation (BOR) . Recommendation two was BLM
specific. Our comments are in the attached document.   The BOR’s
comments are being sent separately.  The  BLM responsible official
is the Assistant Director, Resource Use and Protection.   The
point of contact for withdrawal reviews is Jeff Holdren who can
be reached at (202) 452-7779.

If we can be of further assistance, please-contact Gwen Midgette,
BLM Audit Liaison Officer, at (202) 452-7739.




Attachment
                                                            APPENDIX 2
                                                            Page 2 of 6


                 RESPONSE TO DRAFT AUDIT REPORT
          WITHDRAWN LANDS, DEPARTMENT OF THE INTERIOR
                   W-IN-MOA-001-95, JULY 1996

Recommendation No. 1:   Develop an action plan, with target dates
based on priorities established by the Department, for processing
the backlog of land withdrawal reviews already completed by the
Bureau of Land Management (BLM) and for completing the remaining
withdrawal reviews.   This plan should include actions to resolve
the intraDepartmental disagreements regarding the Bureau’s
processing procedures.

Comment:  Resolution and implementation of this recommendation
will require the following actions:

     1. The Office of Congressional Liaison (OCL) sends completed
withdrawal reviews to the President and the Congress;

     2. The BLM Washington Office (WO) sends completed withdrawal
reviews to the Department;

     3. The BLM and the Bureau of Reclamation (BOR) develop a
plan to complete the remaining withdrawal reviews; and

     4. The BLM and the Office of the Solicitor (SOL) resolve
disagreements about processing procedures.

Planned Resolution

Action 1: The BLM will request that the OCL send forward those
cases that the BLM State Offices (SO) decide are appropriate for
processing under Section 204(1) of the Federal Land Policy and
Management Act (FLPMA) .

Action 2: The BLM will send SO determined section 204(1)
withdrawal review cases to the OCL for processing.  The SOL and
the BLM agreed that currently completed Forest Service cases held
by the BLM WO will be processed under the section 204(1)
authority.

Action 3: The BLM and the BOR will develop a plan to complete the
remaining withdrawal reviews by March 31, 1997.

Action 4: All known disagreements concerning withdrawal
processing actions have been resolved and are discussed in the
attached guidance. The BLM WO sent this guidance to all BLM
field officials under Instruction Memorandum (IM) No. 96-145.

Recommendation No. 2 Develop and adopt, to the extent possible,
policies and procedures to use the authority of Section 204(a) of
the Federal Land Policy and Management Act to expedite the
termination of administrative land withdrawals.
                                                             APPENDIX 2
                                                             Page 3 of 6


                                                                   2

Comment:  A proposal was presented to the SOL concerning the use
of Section 204(a) of FLPMA to expedite the processing of
withdrawal reviews.  The SOL accepted the proposal and agreed to
allow qualified withdrawal reviews to be processed under the
section 204(a) authority. The remaining withdrawals would still
be processed under the section 204(1) authority. Withdrawals
will be revoked or terminated as appropriate.

The attached IM provides the necessary instruction and guidance
to implement the processes agreed to by the SOL, the Assistant
Secretary, Land and Minerals Management, and the BLM.

Changes have been incorporated in the fiscal year 1997 Annual
Work Plan proposals for the BLM to include withdrawal review as a
priority item.

Recommendation No. 3 Take action necessary to ensure that
disputes between the Bureau of Land Management and the Bureau of
Reclamation regarding the continuation or termination of existing
land withdrawals are resolved by the deadlines agreed to by the
cognizant field office officials.

Planned Resolution

The BLM and the BOR have undertaken several processes to complete
existing withdrawal reviews.  Several BLM State Offices have
completed reviews of BOR withdrawals and reached agreements as
follow:

     1.  The BLM and BOR New Mexico offices are currently
preparing a joint plan to determine the outcome of certain
withdrawals where agreement has not been reached.

      2. The BLM and BOR Montana and Wyoming offices are actively
working to complete reviews and are having successes in this
area.

     3 . The BLM and BOR Oregon offices are currently working to
resolve withdrawal review issues.  The BLM WO will work with the
Oregon SO to have a schedule developed for completion of these
reviews by November 30, 1996.

The BLM and BOR headquarters offices will work together to
develop any additional policy guidance necessary to complete this
work.




Attachment



                               17
                                                                                       APPENDIX 2
                                                                                       Page 4 of 6




                                                                 In Reply, Refer to:

                                                                   2355 (350)

EMS TRANSMISSION 7/19/96
Instruction Memorandum No. 96-145
Expires: 09/30/97

To:           All Washington Office and Field Officials

From:         Director

Subject:      Guidance for Processing Withdrawal Reviews Using Federal Land Policy
              and Management Act Sections 204(a) and 204(1) Authorities

                                        Background

Section 204(1) of the Federal Land Policy and Management Act of 1976 (FLPMA) requires
the Secretary to review existing withdrawals in the 11 contiguous Western States, excluding
Alaska. Since 1979, more than $20,000,000 has been spent by the Bureau of Land
Management (BLM) field offices in analyzing withdrawals and making review
recommendations based on the Section 204(1) process. None of the completed reviews have
been processed through the Department. Section 204(a) of the FLPMA provides authority to
the Secretary of the Interior (Secretary) to make, modify, extend, or revoke withdrawals.

The Reinvention of Government, Phase 2 initiative emphasizes streamlining and eliminating
unneeded work, while encouraging the development of processes that provide results and
reduce costs. With this purpose in mind, discussions were undertaken with the Solicitor to
explore procedures for reviving and accelerating the withdrawal review process, with
renewed emphasis on Section 204(a) revocations. This instruction memorandum (IM)
delineates more precisely the circumstances in which Section 204(a) authority may be
invoked, in contrast to the statutory withdrawal review process provided for under Section
204(1).

This IM provides procedural guidance on how to revoke withdrawals using Section 204(a)
authority for those withdrawals that meet the review criteria under DM 603. In addition,
some updated guidance on processing Section 204(1) reviews is also included. There is no
established schedule for completing these reviews; however, each State is encouraged to
submit reviews as workload permits, bearing in mind that in many instances a majority of
your review work has already been completed.




                                             18
                                                                                     APPENDIX 2
                                                                                     Page 5 of 6


                                                                                          2

                                    General Guidance

 This guidance may be used to commence processing withdrawal reviews under the
 authorities cited in this IM. You are encouraged to recommend innovative approaches
 to expedite processing withdrawal revocations and terminations. If you identify new
 streamlining steps that you believe are legal and practicable, please let the
 Washington Office (WO) know so that we may review and approve them for use by
the other States. Some examples you may wish to consider using now are: (1)
Combining like actions, (e.g., a group of Reclamation withdrawals that come from one
project and the action in each will result in the same outcome(s), or a group of Forest
Service terminations that provide the same ultimate result into one Public Land Order
(PLO) or Termination Order (TO); (2) referencing earlier documentation of a
withdrawal for lengthy legal descriptions if the description is the same (e.g., reference
PLO number, or other withdrawal document(s) published in the Federal Resister, for
the legal description), or if the description is slightly different, list exceptions to the
legal description in the PLO; and (3) Using PLO 5444, as amended, to clear records
where possible, thus eliminating the need to submit new PLO’s or TO’s for these
actions. However, in such cases, you must note the master title plats or other official
records as to the applicability of PLO 5444.

Withdrawals that were packaged and sent to WO, and packages held by the Zone
Coordinators will be returned for processing in accordance with the criteria and
procedures contained in this guidance. Please review these packages to see which
process should be applied. If withdrawals fit into the 204(1) category, then resubmit
the packages to the Zone Coordinators, or revise them as appropriate so we may
send them forward to the President and Congress.

For withdrawals that have not been reviewed or packaged, please evaluate them
against the criteria contained herein. Prepare PLO’s and other necessary
documentation for those withdrawals that meet the Section 204(a) criteria and send to
the Zone Coordinators. Send withdrawal packages meeting Section 204(1)
requirements, to the Zone Coordinators. Forest Service withdrawals that close lands
to mining or mineral leasing, where there is not an immediate need for the lands are
considered Section 204(1) cases. Existing completed packages will be sent forward
without being returned, unless you request otherwise.

To date, we have concentrated on reviewing the Bureau of Reclamation, BLM, and
Forest Service withdrawals. However, if you have opportunities to process withdrawal
reviews for other agencies, please take advantage of them.




                                            19
                                                                                 APPENDIX 2
                                                                                 Page 6 of 6



                                                                                           3

                          Screening of FLPMA 204(a) Cases

Based on agreement with the Department of the Interior, BLM will use Departmental
Manual (DM) 603 authority to review and Section 204(a) authority to revoke or
continue many withdrawals that were formerly being processed using the authority of
Section 204(1). Advantages of using Section 204(a) revocation authority under certain
circumstances include: (1) expedited removal of obsolete withdrawals; (2) updated
and increased clarity of land records; (3) increased opportunity to use formerly
withdrawn lands for exchanges, land disposals, mineral development, or other needs
as indicated in land use plans; (4) protection and management of valuable resources;
and (5) provision for one agency management of formerly withdrawn lands, thereby
reducing overhead costs. The Withdrawal Action/Authority Determination Table
(Attachment 1 ) indicates which authority will apply in specific cases.

                   Additional FLPMA 204(I) Processing Guidance

The BLM will continue using general guidance found in the Draft 2355 Withdrawal
Review and Implementation Manual and associated Handbook as general guidance for
the handling of withdrawal review under Section 204(1) authority, allowing for changes
that may occur because of innovation and streamlining. Where this IM conflicts with
the manual/handbook guidance, the IM will control.

Note that 204(1) TO’s may be signed by State Directors per authority delegation
contained in Departmental Manual 235, and BLM Manual 1203, as discussed in
IM 93-5, dated October 1, 1992. IM 93-5 states that a PLO is the mechanism used
for terminating a withdrawal. That direction is superseded by this IM, in that TO’s will
not be considered as PLO’s and, therefore, are not assigned PLO numbers. Sample
TO’s are shown as Attachments 3(a) and 3(b). Until notice to the contrary,
modification orders required for 204(1) continuations will be processed as PLO’s, as
authority to sign orders for these modifications has not been delegated. The
numbering of TO’s should be done by each State (e.g., “TO AZ-1 “). Reference to
both the serial number of the withdrawal case file, and the document authorizing the
withdrawal must be described in the TO (see Attachments 3(a) and 3(b).




                                            20
                                                                                      APPENDIX 3
                                                                                      Page 1 of 2
                United States Department of the Interior
                                 OFFICE OF THE SECRETARY
                                     Washington, D.C. 20240




                                     MEMORANDUM

To:           Office of Inspector General
               Attention: Acting Assistant Inspector General for Audits
                                   / -
From:          Patricia J. Beneke


Subject:       Response to Draft Audit Report, “Withdrawn Lands, Department of the
               Interior” (Report No. W-IN-MOA-001-95, July 1996)

We welcome the opportunity to comment on the subject audit report and anticipate that
the actions to be taken by the Bureau of Reclamation and the Bureau of Land
Management (BLM) will result in better management and use of Federal lands.
Provided is a response to Recommendations 1 and 3 as they relate to the Bureau of
Reclamation.

Audit Recommendations:

We recommend that the Assistant Secretary for Land and Minerals Management and
the Assistant Secretary for Water and Science, in consultation with the Solicitor, as
appropriate, direct Departmental officials to:

Recommendation 1: Develop an action plan, with target dates based on priorities
established by the Department, for processing the backlog of land withdrawal reviews
already completed by the Bureau of Land Management and for completing the
remaining withdrawal reviews. This plan should include actions to resolve the
intraDepartmental disagreements regarding the Bureau’s processing procedures.

Recommendation 3: Take actions necessary to ensure that disputes between the
Bureau of Land Management and the Bureau of Reclamation regarding the
continuation or termination of existing land withdrawals are resolved by the deadlines
agreed to by the cognizant field office officials.

        Response (Recommendations 1 & 3): Concur. By copy of this memorandum.
        the Commissioner of the Bureau of Reclamation is directed to instruct
        appropriate agency officials to participate with BLM staff in developing an action



                                           21
                                                                                   APPENDIX 3    I
                                                                                   Page 2 of 2


                                                                                        2

      plan for completing the remaining withdrawal reviews. In addition, Reclamation
      officials will coordinate with BLM staff to resolve disputes regarding the
      continuation or termination of existing land withdrawals.

      The responsible official for participating in the development and implementation
      of the action plan and for participating in resolving land withdrawal disputes with
      BLM staff is the Director, Program Analysis Office, Bureau of Reclamation. By
      March 31, 1997, Reclamation and BLM staff will implement the action plan
      relating to completing the remaining withdrawal review. In order to meet this
      date, a plan to resolve land withdrawal disputes with BLM staff will be developed
      by December 30, 1996.

If you have any questions or require additional information, please contact Luis Maez at
(303) 236-3289, extension 245.




cc:   Bureau of Land Management, Attention: Audit Liaison, Room 1000- L Street
      Office of Financial Management, Attention: Wayne Howard




                                           22
                                                                 APPENDIX 4

        STATUS OF AUDIT REPORT RECOMMENDATIONS

    Finding/
Recommendation
   Reference            Status                      Action Required



    1            Management concurs;      The Assistant Secretary for Land and
                 additional information   Minerals Management should
                 needed.                  provide a plan that includes actions
                                          and target dates that are based on
                                          priorities established by the
                                          Department for completing all the
                                          remaining withdrawal reviews
                                          required to be performed. No
                                          further response from the Assistant
                                          Secretary for Water and Science is
                                          required for this recommendation.

                 Implemented.             No further action is required.

                 Management concurs;      The Assistant Secretary for Land and
                 additional information   Minerals Management should
                 needed.                  provide target dates for
                                          implementation of this
                                          recommendation. No further
                                          response from the Assistant Secretary
                                          for Water and Science is required for
                                          this recommendation.




                                    23
Within the Continental United States




Outside the Continental United States
